               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




           Postal Service Purchasing
          Policies' Impact on Defective
              Pricing Fraud Cases

               Management Advisory




                                         September 18, 2013

Report Number SM-MA-13-006
                                                                     September 18, 2013

                                            Postal Service Purchasing Policies' Impact
                                                     on Defective Pricing Fraud Cases

                                                          Report Number SM-MA-13-006



BACKGROUND:
Defective pricing fraud occurs when a          found that U.S. Attorney’s offices did not
supplier knowingly submits false cost or       criminally prosecute suppliers for
pricing data in response to a contract         submitting defective cost or pricing data
solicitation. The U.S. Postal Service's        in contracting actions valued at about
purchasing policies include a defective        $36 million and OIG special agents did
pricing contract clause stating that           not pursue litigation for a supplier with
prices will be reduced if the supplier         an average annual spend of
submits inaccurate cost or pricing data.       $122 million.
However, unlike most federal agencies,
the Postal Service is not mandated by          This occurred because the Postal
Congress to require suppliers to certify       Service does not require suppliers to
the accuracy and completeness of their         certify cost or pricing data for accuracy
cost or pricing data.                          and because the Christian Doctrine
                                               does not apply to the Postal Service’s
On May 19, 2005, the Postal Service            defective pricing policies and clauses.
replaced the Purchasing Manual, which          Therefore, U.S. Attorney’s offices have
had the effect of law, with the Supplying      a harder time proving fraud when
Principles and Practices, which are            defective data are knowingly submitted
nonbinding guidelines intended for             by a supplier even when defective
internal use. Because the guidelines are       pricing clauses are in the contracts.
nonbinding, the Christian Doctrine only        Postal Service personnel stated that
applies to the Postal Service for laws         requiring certification would increase
that it is required by law to follow. The      costs to suppliers that would be passed
Christian Doctrine states that a               on to the Postal Service; however, lack
mandatory clause involving important           of such requirement de-emphasizes the
public policy will be read into a              importance of data accuracy to
government contract by operation of law        suppliers. As a result, the Postal Service
even if the clause is left out of the          is at increased risk of awarding
contract. Our objective was to assess          contracts based on inaccurate cost or
the impact of the Postal Service's             pricing data.
purchasing policies on prosecuting
defective pricing fraud cases.                 WHAT THE OIG RECOMMENDED:
                                               We recommended management require
WHAT THE OIG FOUND:                            suppliers to certify cost or pricing data
Postal Service purchasing policies have        when submitted to the Postal Service.
negatively impacted the prosecution of
defective pricing cases. Specifically, we      Link to review the entire report
September 18, 2013

MEMORANDUM FOR:            SUSAN M. BROWNELL
                           VICE PRESIDENT, SUPPLY MANAGEMENT




FROM:                      Michael A. Magalski
                           Deputy Assistant Inspector General
                            for Support Operations

SUBJECT:                   Management Advisory – Postal Service Purchasing Policies'
                           Impact on Defective Pricing Fraud Cases
                           (Report Number SM-MA-13-006)

This report presents the results of our review of the U.S. Postal Service Purchasing
Policies' Impact on Defective Pricing Fraud Cases (Project Number 12YG043CA000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Monique P. Colter, director,
Supply Management and Facilities, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Postal Service Purchasing Policies' Impact on                                                                     SM-MA-13-006
 Defective Pricing Fraud Cases



                                               TABLE OF CONTENTS



Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Purchasing Policies' Impact on Defective Pricing Fraud Cases ...................................... 1

Recommendation ............................................................................................................ 3

Management’s Comments .............................................................................................. 3

Evaluation of Management’s Comments ......................................................................... 4

Appendix A: Additional Information ................................................................................. 6

   Background ................................................................................................................. 6

   Objective, Scope, and Methodology ............................................................................ 6

   Prior Audit Coverage ................................................................................................... 7

Appendix B: Management's Comments .......................................................................... 8
Postal Service Purchasing Policies' Impact on                                                       SM-MA-13-006
 Defective Pricing Fraud Cases


Introduction

This report presents the results of our review of U.S. Postal Service Purchasing Policies'
Impact on Defective Pricing Fraud Cases (Project Number 12YG043CA000). Our
objective was to assess the impact of the policies on prosecuting defective pricing fraud
cases. This was a self-initiated audit and addresses financial risk. See Appendix A for
additional information about this review.

Defective pricing fraud occurs when a supplier knowingly submits false cost or pricing
data when responding to a contract solicitation. The Postal Service's purchasing policies
include a defective pricing contract clause stating that prices will be reduced if the
supplier submits inaccurate cost or pricing data. However, unlike most federal agencies,
the Postal Service is not mandated by Congress to require suppliers to certify the
accuracy and completeness of their cost or pricing data.

Deregulation of the Postal Service's purchasing policies on May 19, 2005, had various
impacts. To operate more like the private sector, the Postal Service replaced the
Purchasing Manual, which had the effect of law, with the Supplying Principles and
Practices (SP&Ps), which are nonbinding guidelines intended for internal use.
Additionally, since the guidelines are nonbinding, the Christian Doctrine only applies to
the Postal Service for laws that it is required to follow.1 The Christian Doctrine states
that a mandatory clause involving important public policy will be read into a government
contract by operation of law even if the clause is left out of the contract document.

Conclusion

Postal Service purchasing policies have negatively impacted the prosecution of
defective pricing cases. Specifically, we found that U.S. Attorney’s offices did not
criminally prosecute suppliers for submitting defective cost or pricing data in contracting
actions valued at about $36 million, and U.S. Postal Service Office of Inspector General
(OIG) special agents did not further investigate a supplier with an average annual spend
of $122 million.

Purchasing Policies' Impact on Defective Pricing Fraud Cases

Examples of the Postal Service’s current purchasing policies and procedures negatively
impacting the ability to ensure prosecution of defective pricing cases include:

   In an investigative case related to a $31 million Postal Service contract for mail
    verification equipment, the U.S. Attorney’s Office did not prosecute the case
    criminally, citing the contract did not obligate the contractor to present updated cost

1
 An example of a law that the Postal Service is required to follow is the Service Contract Act of 1965. It requires
contractors and subcontractors performing services on prime contracts in excess of $2,500 to pay service employees
in various classes no less than the wage rates and fringe benefits found prevailing in the locality, or the rates
(including prospective increases) contained in a predecessor contractor's collective bargaining agreement.

                                                         1
Postal Service Purchasing Policies' Impact on                                              SM-MA-13-006
 Defective Pricing Fraud Cases


       or pricing data during the negotiations. Ultimately, this case was prosecuted civilly;
       however, the U.S. Attorney’s Office expressed concern about the lack of certification
       that normally exists in a government contract. The Postal Service subsequently
       received $1.5 million from the supplier to settle the case.

      In another investigative case opened February 20, 2008, and related to a proposal
       from an architect and engineering firm valued at $5 million, the U.S. attorney
       declined to pursue both criminal and civil prosecution because it appeared the
       company acted with no intent to harm. The U.S. attorney concluded that the officers
       of the company appeared to not understand the Postal Service's policies on pricing
       overhead rates.

      In another investigative case, a supplier who received an average of about $122
       million annually2 for software, equipment, and services was investigated for potential
       cost overcharging of subcontract costs for automation systems contracts. However,
       the U.S. attorney raised concerns that no regulation or certification requirements
       existed in Postal Service policies for the supplier. The U.S. attorney felt the lack of
       regulations created a burden on prosecutors to prove whether suppliers knew of the
       obligation and intended to violate the contract terms. Also, the U.S. attorney felt that
       depending only on the contract provisions allowed the defendants to argue that they
       simply did not understand the contract provisions or did not realize they were part of
       the requirements. The Postal Service and the supplier agreed to an administrative
       settlement of $5 million. The case was closed on September 21, 2006, and was not
       prosecuted criminally or civilly.

The U.S. attorney’s reluctance to pursue prosecuting defective pricing cases was
caused by the following issues:

      The Postal Service does not require suppliers to certify and submit cost or pricing
       data that are accurate, complete, and current. Therefore, there is reduced assurance
       that suppliers understand cost or pricing submission requirements.

      The SP&Ps are considered guidance and are not regulated by law. As a result, the
       Christian Doctrine does not apply to the Postal Service’s defective pricing policies
       and clauses. Therefore, the Postal Service cannot hold suppliers responsible for
       defective pricing clauses left out of the contract.

Additionally, an attorney with the OIG Office of General Counsel stated that U.S.
attorneys expressed concern that many contracts have no document to show a supplier
acknowledges and understands the requirements of the contract. The attorney also
stated that, in some cases, U.S. attorneys requested that investigators find independent
evidence of intent by producing witness emails or statements. Poring through emails or
statements for an understanding of the requirements to infer understanding or intent to
violate the terms would not have been necessary if certification was part of the process.


2
    This is the average spend for the supplier for fiscal years (FYs) 2009 through 2012.

                                                             2
Postal Service Purchasing Policies' Impact on                                    SM-MA-13-006
 Defective Pricing Fraud Cases


Further, four OIG special agents who investigate defective pricing cases stated that
certification of cost and pricing data would greatly improve the likelihood of a prosecutor
accepting a case. The agents also stated that certification would be an additional tool
that would facilitate prosecuting fraud cases.

Postal Service personnel stated that adding a certification requirement would increase
costs to suppliers that would be passed on to the Postal Service; however, lack of such
requirement de-emphasizes the importance of data accuracy to suppliers. Having the
Postal Service require suppliers to certify cost or pricing data would have at least two
benefits:

   Certification would relieve the government of the burden of proving fraud when a
    supplier knowingly submits defective data. The burden of proof in criminal cases is
    beyond a reasonable doubt — a hefty burden. Certification would eliminate the need
    to prove intent as the signature on the certificate is the proof of intent.

   Certification would provide more immediate assurance to the contracting officer that
    the supplier is providing accurate, complete, and current data during negotiations.

Recommendation

We recommend the vice president, Supply Management:

1. Require suppliers to certify that cost or pricing data are accurate, complete, and
   current.

Management’s Comments

Management disagreed with the finding and recommendation that the Postal Service
should require suppliers to certify that cost or pricing data are accurate, complete, and
current as a standard practice. Management stated that the Postal Service’s interests
are fully protected under existing practices and imposing a certification requirement on
suppliers may create disadvantages that outweigh any benefits. Management stated
that the disadvantages include increased costs and time to award a contract and a
negative impact on their ability to do business with a broad base of suppliers.
Management also stated that the Postal Service uses alternatives, such as competition
and commercial price analysis, to obtaining cost or pricing data to ensure that prices
negotiated with suppliers are fair and reasonable.

Management stated that professional and academic literature recognizes that cost and
pricing data certification significantly increases the supplier’s risk of doing business with
the government and the increased risks drives up contract costs. They quoted a 1994
study conducted by Coopers & Lybrand on behalf of the U.S. Department of Defense
(DoD) that determined the government paid an average 18 percent premium for goods




                                                3
Postal Service Purchasing Policies' Impact on                                                         SM-MA-13-006
 Defective Pricing Fraud Cases


and services as a result of the Truth in Negotiations Act3 and other federal contracting
and procurement requirements.

However, management agreed to study the matter further and provide guidance in the
SP&Ps describing the conditions under which contracting officers should consider
requiring a supplier to furnish a certification and to enhance the SP&Ps and related
provisions and clauses to ensure suppliers fully understand submission requirements
for cost or pricing data by March 2014. See Appendix B for management’s comments in
their entirety.

Evaluation of Management’s Comments

The OIG does not consider management’s proposed alternative course of action to be
responsive to the recommendation and believes it will not resolve the issues identified in
the report. Our report provides examples of the lack of certification of cost or pricing
data negatively impacting the prosecution of defective pricing cases; therefore, we do
not agree with management that the Postal Service’s interests are fully protected under
existing practices. Their proposed actions to study the matter further and provide
guidance in the SP&Ps describing the conditions under which contracting officers
should consider requiring a supplier to furnish a certification do not ensure that the
Postal Service’s interest will be protected since the SP&Ps are nonbinding guidelines.
Instead of issuing guidance, management should require certification.

We agree with management that other tools, such as competition and commercial price
analysis, can be used to fairly price contracts. However, in situations where the
contracting officer is reduced to relying on the supplier’s submission of cost or pricing
data to price a contract, having the supplier provide certification that the data are
accurate, complete, and current would provide increased assurance to the contracting
officer that the Postal Service is receiving a fair price. For example, the SP&Ps state
that cost or pricing data must be obtained before awarding a noncompetitive contract or
modification whenever price analysis is insufficient to determine reasonableness of
price4. Obtaining certification in those situations would benefit the contracting officer.
The Federal Acquisition Regulation (FAR) requires suppliers to certify cost or pricing
data when the contracting officer determines the submission is required.

Management cited an article and studies concluding that there is an increased cost to
the supplier for having to comply with government statutes and regulations. However,
our research shows that there is no conclusive evidence of the increased costs, and the
studies do not quantify the benefits of statutes and regulations to the federal agencies.




3
  A public law enacted for the purpose of providing for full and fair disclosure by contractors in the conduct of
negotiations with the government. The most significant provision included in TINA is the requirement that contractors
submit certified cost and pricing data for larger contracts.
4
  Supplying Practice, step 2-34.6, Cost Analysis.

                                                          4
Postal Service Purchasing Policies' Impact on                                                     SM-MA-13-006
 Defective Pricing Fraud Cases


Specifically, with regard to the Coopers & Lybrand study referenced by management,
the RAND National Defense Research Institute stated in a technical report5 that:

        The numbers in the Coopers & Lybrand study are often referred to as
        “actual data,” whereas in fact they are semi-quantitative estimates based
        on limited data and a unique methodology. This methodology, though
        consistently applied, is ultimately subjective in its assessment of the cost
        consequences of specific statutes and regulations. Although the study
        concludes with a number (18 percent), it is derived from expert opinion
        and theoretical analyses, rather than actual (demonstrated) impacts on a
        program.

        The Coopers & Lybrand project team evaluated only the direct costs (e.g.,
        labor) of compliance with DoD regulations at the contractor level. The
        study concluded that significant savings were potentially achievable
        through reductions in DoD regulations and oversight without examining
        the benefits that are associated with the oversight process and without
        examining the actual cost of implementing reform. The study also did not
        address costs (or benefits) at the government program office level.

Management indicated that certification would place an additional cost burden on their
suppliers but did not provide additional information supporting this claim. The
certification should not place an additional cost burden on Postal Service suppliers as
they are already expected to provide accurate, complete, and current data. However, it
would document the supplier’s understanding of the requirement and relieve the
government of the burden of proving fraud when the supplier knowingly submits
defective data.

Also, many Postal Service suppliers do business with the federal government and are
expected to comply with the requirements of the FAR to provide certified cost or pricing
data, when requested by a contracting officer. For example, 41 of the Postal Service’s
FY 2012 100 Top Spend suppliers have contracts with the federal government. These
suppliers had a total spend of about $6 billion of the $13 billion contract spend with the
Postal Service in FY 2012.

We view the disagreement to the recommendation as unresolved and plan to pursue it
through the formal audit resolution process.




5
 Measuring the Statutory and Regulatory Constraints on DoD Acquisition: Research Design for an Empirical Study,
copyright 2006.

                                                        5
Postal Service Purchasing Policies' Impact on                                                       SM-MA-13-006
 Defective Pricing Fraud Cases


                                   Appendix A: Additional Information

Background

Deregulation of Postal Service purchasing policies on May 19, 2005, led to
management replacing the Purchasing Manual with the SP&Ps. The deregulation was
recommended by the President’s Commission on the United States Postal Service.

While the Purchasing Manual had the force and effect of law, the SP&Ps are not binding
regulations for the Postal Service. They are intended for internal use only, to assist
Postal Service personnel in obtaining best value6 and efficiently conducting its supply
chain functions. Further, prior to deregulation, the Christian Doctrine applied to the
Postal Service; however, after deregulation the Christian Doctrine no longer applied to
the Postal Service.

The SP&Ps include a defective pricing contract clause stating that prices will be
reduced if the supplier submits inaccurate cost or pricing data. Defective pricing fraud
occurs when a supplier knowingly submits false cost or pricing data for contract pricing
consideration. However, unlike most federal agencies, the Postal Service is not
mandated by Congress to require suppliers to certify that cost and pricing data are
accurate, complete, and current; and right now the SP&Ps do not require suppliers to
provide the certification. However, the Postal Service required suppliers to certify cost
and pricing data in the 1975 version of the Purchasing Manual; but, according to a
Postal Service official, it was no longer a requirement as of 1987.

Objective, Scope, and Methodology

Our objective was to assess the impact of the Postal Service's purchasing policies on
prosecuting defective pricing fraud cases. To accomplish our objective, we:

   Met with Supply Management officials to get their view on the positive and negative
    aspects associated with deregulation of the Postal Service's purchasing policies.

   Compared the Postal Service’s purchasing policies for defective pricing to the FAR.

   Interviewed OIG offices of General Counsel and Investigations representatives to
    obtain information concerning the impact of deregulation on prosecuted fraud cases.

   Gained an understanding of the process Postal Service contracting personnel use to
    create contracts.




6
 The outcome that provides the optimal combination of elements such as lowest total cost of ownership, technology,
innovation and efficiency, assurance of supply, and quality relative to the Postal Service’s needs.

                                                         6
Postal Service Purchasing Policies' Impact on                                   SM-MA-13-006
 Defective Pricing Fraud Cases


We conducted this review from September 2012 through September 2013, in
accordance with the Council of the Inspectors General on Integrity and Efficiency,
Quality Standards for Inspection and Evaluation. We discussed our observations and
conclusions with management on July 23, 2013, and included their comments where
appropriate.

Prior Audit Coverage

The OIG did not identify any prior audits or reviews related to the objective of this audit
during the past 3 years.




                                                7
Postal Service Purchasing Policies' Impact on                   SM-MA-13-006
 Defective Pricing Fraud Cases


                            Appendix B: Management's Comments




                                                8
Postal Service Purchasing Policies' Impact on       SM-MA-13-006
 Defective Pricing Fraud Cases




                                                9
Postal Service Purchasing Policies' Impact on        SM-MA-13-006
 Defective Pricing Fraud Cases




                                                10
Postal Service Purchasing Policies' Impact on        SM-MA-13-006
 Defective Pricing Fraud Cases




                                                11
